                                  SENSITIVE BUT UNCLASSIFIED





                 (U) UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


(U) AUD-MERO-14-05                                Office of Audits                                   December 2013




   (U) Audit of the Department of State and 

  Embassy Kabul Planning for the Transition 

   to a Civilian-Led Mission in Afghanistan




(U) IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.
                               SENSITIVE BUT UNCLASSIFIED 

                                                              United States Department of State
                                                              and tbe Broadcasting Board of Governors

                                                              Office of Inspecto r General




                                          PREFACE


     (U) This report was prepared by the Office of Inspector General (OJG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     (U) This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

     (U) It is my hope that this report will result in more effective, efficient, and/or economical
operations. I express my appreciation to all of those who contributed to the preparation of this
report.
                                                                     L
                                                                      ~. 

                                           Norman P. Brown
                                           Acting Assistant Inspector General
                                            for Audits




                               SENSITIVE BUT UNCLASSIFIED 

                     SENSITIVE BUT UNCLASSIFIED




(U) Acronyms
(U) ANSF       Afghan National Security Forces
(U) BSA        Bilateral Security Agreement
(U) DS         Bureau of Diplomatic Security
(U) GIROA      Government of the Islamic Republic of Afghanistan
(U) ISAF       International Security Assistance Force
(U) NATO       North Atlantic Treaty Organization
(U) OPLAN      Operations Plan
(U) OIG        Office of Inspector General
(U) SBU        Sensitive but Unclassified
(U) SPA        Enduring Strategic Partnership Agreement Between the United States of
               America and the Islamic Republic of Afghanistan
(U) USAID      U.S. Agency for International Development




                     SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED



                                                    (U) Table of Contents

Section                                                                                                                                   Page

(U) Executive Summary ..................................................................................................................1


(U) Background ...............................................................................................................................3


(U) Objective ...................................................................................................................................5


(U) Audit Results ............................................................................................................................6

      (SBU) Department Transition Planning is Effective but Contingent on Key Policy

      Decisions..............................................................................................................................6


(U) Appendices
      (U) A. Scope and Methodology.........................................................................................16

      (U) B. Validation of Transition Task Status ......................................................................19

      (U) C. Embassy Kabul Response.......................................................................................24

      (U) D. Bureau of Diplomatic Security Response...............................................................25


(U) Major Contributors to This Report..........................................................................................27





                                            SENSITIVE BUT UNCLASSIFIED

                                   SENSITIVE BUT UNCLASSIFIED



                                        (U) Executive Summary
        (SBU) The U.S. mission in Afghanistan is scheduled to transition from a predominantly
military-led to a civilian-led mission in December 2014. Concurrently with this transition,
Afghanistan will begin its “transformational decade” 1 for which the international community has
pledged its support for the development and growth of Afghanistan through 2024. In 2015, the
United States efforts toward the transformational decade will become primarily the responsibility
of the Department of State (Department) and Embassy Kabul. U.S. operations in Afghanistan
have been primarily led by the Department of Defense while North Atlantic Treaty Organization
(NATO) combat operations have been underway. The Department’s Office of Inspector General
(OIG) conducted this audit under the authority of the Inspector General Act of 1978, as
amended, to assess the effectiveness of the Department and Embassy Kabul’s planning for the
transition from a military-led to civilian-led mission in Afghanistan. This is the first in a series
of OIG reports on the Afghanistan transition. This report focuses on the effectiveness of the
Department’s transition planning process. Subsequent reports will focus on the impact of
transition on Department programs and operations in Afghanistan and on the effectiveness of the
transition plan’s implementation.

        (SBU) Embassy Kabul has generally engaged in effective planning for the transition from
a military-led to a civilian-led mission in Afghanistan by instituting a programmatic approach to
the transition and incorporating lessons learned from the Iraq transition. To determine the
effectiveness of Embassy Kabul’s transition planning, OIG used a National Performance Review
report on best practices for downsizing in the Federal Government as a benchmark. 2 Embassy
Kabul’s planning activities included the establishment of a transition organization, development
of strategic and operational transition plans, determination and monitoring of transition tasks,
and use of lessons learned from the Iraq transition. Such practices were consistent with the
National Performance Review’s best practices. On November 20, 2013, the Afghan Ministry of
Foreign Affairs released a draft of the “Security and Defense Cooperation Agreement Between
the United States of America and the Islamic Republic of Afghanistan,” (known as the Bilateral
Security Agreement (BSA) 3), which identifies the status and role of U.S. military forces after the
NATO combat mission ends December 31, 2014. Although the Ministry released the draft, the
BSA remains unsigned and is subject to further negotiations and potential changes. The
embassy’s transition planning assumes the BSA will be signed and authorize the U.S. military
enough latitude to support U.S. civilian missions beyond 2014. Because the BSA remains
1
  (U) The “Transformation Decade” refers to the time period from 2015‐2024. The International Community and
Afghanistan declared themselves dedicated to a partnership following transition and the end of combat operations.
The Transformation Decade includes mutual commitments in the areas of governance, security, the peace process,
economic and social development, and regional cooperation.
2
  (U) In 1993, then Vice President Al Gore led a National Performance Review to improve efficiency in
Government. In support of this initiative, the President’s Management Council, composed of high-ranking officials
from major Federal entities, identified downsizing as a topic for consideration. As a result, an interagency team of
eight Federal agencies conducted a benchmarking study and issued the National Performance Review, Serving the
American Public: Best Practices in Downsizing, Sept. 1997,
<http://govinfo.library.unt.edu/npr/library/papers/benchmrk/downsize.html>.
3
  (SBU) On November 15, 2012, the United States and Afghanistan launched BSA negotiations, as agreed upon in
the Enduring Strategic Partnership Agreement Between the United States of America and the Islamic Republic of
Afghanistan.
                                                1
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


unsigned, the level to which the embassy can depend upon support from the military in post­
2014 Afghanistan remains unknown. Without U.S. military support, embassy operations may
need to be significantly curtailed at diplomatic platforms or the embassy will need to expend
substantially greater resources in an effort to address an increased security risk.

        (SBU) OIG determined that Embassy Kabul’s transition planning was generally effective.
However, key decisions cannot be timely made until the U.S. military presence post-2014 is
clarified. Without timely key decisions, the embassy will potentially be unable to fully prepare
for the transition from a military-led to civilian-led mission in Afghanistan. Because further
transition planning and implementation are contingent on BSA completion, OIG did not make
recommendations in this report. However, OIG will continue to monitor the status of the BSA
and its impact on Embassy Kabul’s transition planning and implementation.

       (SBU) OIG received comments from Embassy Kabul on November 2, 2013, and the
Bureau of Diplomatic Security (DS) on November 7, 2013. Both the embassy and DS agreed
that BSA completion will determine the U.S. footprint in Afghanistan and stated that planning is
based on the most current information available to allow for the greatest flexibility. Embassy
Kabul’s comments are reprinted in full in Appendix C. DS’s comments are reprinted in full in
Appendix D.




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


                                             (U) Background
        (SBU) The U.S. mission in Afghanistan is scheduled to transition from a predominantly
military-led to a civilian-led mission in December 2014. U.S. operations in Afghanistan have
been primarily led by the Department of Defense while NATO combat operations have been
underway. According to the embassy’s Transformational Roadmap, 4 the diplomatic presence in
Afghanistan must transition from a “costly conglomeration of transitional diplomatic outposts in
a heavily international military environment into a normalized diplomatic mission.” However,
the U.S. mission in Afghanistan must still be able to “perform necessary outreach, development
assistance, project monitoring, reporting, and traditional diplomatic activities in the safest
manner possible at a cost that is sustainable in an era of declining resources.” 5 Concurrently
with this transition, Afghanistan will begin its transformational decade for which the
international community has pledged its support for the development and growth of Afghanistan
through 2024. In 2015, the United States efforts toward the transformational decade will become
primarily the responsibility of the Department and Embassy Kabul.

(U) Transition and Support Agreements

        (U) Agreements concerning the transition and the transformational decade were set forth
in the following series of summits and conferences attended by the United States, the
Government of the Islamic Republic of Afghanistan (GIROA), NATO International Security
Assistance Force (ISAF), and other members of the international community. 6

        •	 (U) Lisbon Summit – November 2010. The United States, GIROA, and the
           international community agreed to begin a gradual transfer of Afghan security
           responsibilities from ISAF to GIROA with a complete transfer by the end of 2014.
        •	 (U) Bonn Conference – December 2011. The United States, GIROA, and the
           international community agreed that the end of the security transition should be
           followed by a transformational decade with all participating members making firm
           commitments to support the growth efforts in Afghanistan through 2024.
        •	 (U) Chicago Summit – May 2012. NATO announced in the Summit Declaration
           that by mid-2013, the Afghan National Security Forces (ANSF) would take the
           security lead nationwide, accelerating the timetable for the complete transfer agreed
           to at the Lisbon Summit. In June 2013, ANSF took on that lead role and the primary
           mission of the United States and ISAF shifted from a combat role to training,
           advising, and assisting the ANSF.
        •	 (U) Tokyo Conference on Afghanistan – July 2012. The United States and the
           international community reaffirmed their continuing support of Afghanistan during
           the transformational decade. In turn, Afghanistan worked with the Tokyo Conference
           participating members on structuring an economic framework intended to regionally

4
  (SBU) The “U.S. Diplomatic Presence in Afghanistan Transformational Roadmap,” dated July 29, 2013, “lays out 

Post’s vision on how to move forward with the transformation of the diplomatic presence in Afghanistan in a

practical and more cost-effective manner.”

5
  (SBU) Ibid.

6
  (U) NATO maintains a public resource on the transition, available at <http://natolibguides.info/transition/home>.

                                                3
                                   SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

               integrate Afghanistan’s economy and establish a fiscally self-sufficient, democratic
               state with sustainable economic strategies that are intended to gradually decrease its
               reliance on financial support from the international community.

        (SBU) In May 2012, the United States and Afghanistan signed the Enduring Strategic
Partnership Agreement Between the United States of America and Islamic Republic of
Afghanistan (SPA), which details how the future relationship between the two countries will
evolve from a military footing to a normalized partnership with the completed drawdown of U.S.
forces. The SPA intended to affirm the bond between the U.S. and Afghanistan with a
commitment toward peace and security between the nations. In the SPA, the United States
commits to support Afghanistan’s social and economic development, long-term security, and
regional integration. In turn, GIROA pledges a commitment to accountability, transparency,
oversight, and the protection of the human rights of all Afghans. On November 20, 2013, the
Afghan Ministry of Foreign Affairs released a draft of the BSA, which identifies the status and
role of U.S. military forces after the NATO combat mission ends December 31, 2014. Although
the Ministry released the draft, the BSA remains unsigned and is subject to further negotiations
and potential changes.

(U) Transition Offices

         (U) To initiate the transition planning process, Embassy Kabul established two offices,
the Management Transition Office (in June 2011) and the Transition Office (in September 2011).
In May 2013, the two offices were consolidated into a single “Transition Office.” According to
embassy officials, the consolidated office would provide better internal and external coordination
and support for mission-wide strategic transition planning. Prior to the consolidation, the
Management Transition Office was responsible for the resource aspects of transition, such as
logistics, personnel, and the establishment of enduring presence locations, and the Transition
Office was responsible for coordinating with organizations external to the Department such as
ISAF, U.S. Forces – Afghanistan, 7 and the U.S. Agency for International Development
(USAID), among others. The consolidated Transition Office is now responsible for both policy
and resource aspects of transition. Specifically, the Transition Office is responsible for
developing and implementing transition plans to include post-2014 staffing determinations,
establishing the geographic footprint of the embassy and enduring field locations, and producing
policies and procedures for post-2014 field engagement to include monitoring of programs and
activities. The Transition Office also monitors the transfer of any activities from ISAF to other
entities so the embassy is aware of changes that could impact its future mission. The Transition
Office reports directly to the ambassador and deputy chief of mission and is the main point of
contact with agency and section leadership, the Department, ISAF, GIROA, and U.S. Forces –
Afghanistan.

       (U) The Transition Office director also leads the interagency Transition Task Force,
which was established in February 2013 to facilitate embassy-wide communication and
collaboration to ensure coordinated transition efforts that support U.S. policy and objectives.
The Transition Task Force includes four subject matter teams: policy and missions,

7
    (U) U.S. Forces-Afghanistan is the command and control headquarters for U.S. forces operating in Afghanistan.
                                                  4
                                     SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


development, current and enduring field presence, and logistics. The Task Force resolves
individual transition issues as they occur by assembling temporary working groups made up of at
least one participant from each of the four subject matter areas. The temporary working groups,
who report to the Transition Office director, are given a deadline and expected to produce a
defined product to resolve the transition issue.

                                        (U) Objective
       (U) The audit objective was to assess the effectiveness of the Department and Embassy
Kabul’s planning for the transition from a military-led to civilian-led mission in Afghanistan.

        (U) This is the first in a series of OIG reports on the Afghanistan transition. This report
focuses on the effectiveness of the Department’s transition planning process. Subsequent reports
will focus on the impact of transition on Department programs and operations in Afghanistan and
on the effectiveness of the transition plan’s implementation.




                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                                      (U) Audit Results
(SBU) Department Transition Planning is Effective but Contingent on Key Policy Decisions

        (SBU) Embassy Kabul has generally engaged in effective planning for the transition from
a military-led to civilian-led mission in Afghanistan by instituting a programmatic approach to
the transition and by incorporating lessons learned from the Iraq transition. However, the timing
of key decisions on the future U.S. military presence and an incomplete BSA could impact
Embassy Kabul’s ability to timely implement transition activities.

(U) Benchmarking Criteria

        (U) To determine the effectiveness of Embassy Kabul’s transition planning, OIG used a
National Performance Review report on best practices for downsizing in the Federal Government
as a benchmark. Although the National Performance Review focused on some aspects that did
not pertain to the transition, such as involuntary separations that occur during a reduction in
force, the following aspects were relevant:

       •   (U) Involvement of Senior Leadership. Senior leadership involvement is vital to
           effectively move towards the shared vision determined during strategic planning.
           Senior leadership should foster organizational commitment by imparting, on a
           strategic level, the necessity for change and the future direction of the organization.

       •   (U) Involvement of Managers at All Levels. Managers throughout the organization
           need to be held accountable for and committed to the change.

       •   (U) Strategic Planning. Strategic planning should create a shared vision of the
           future of an organization and involves reviewing the organization’s mission,
           processes, and services. Such planning will assist in maintaining a consistent
           understanding of the organization’s future and how it will get there.

       •   (U) Monitoring and Evaluation. Monitoring progress through periodic reviews is a
           chief component of success. Such monitoring allows the organization to learn from
           its successes and failures and to correct course when necessary.

       •   (U) Lessons Learned. Organizations should learn from other organizations that have
           gone through a similar change. Organizations should make sure that their processes
           are adequately documented so that lessons learned and best practices can be shared
           with other organizations.

(U) Effective Transition Planning

        (U) Embassy Kabul has generally engaged in effective planning for the transition from a
military-led to a civilian-led mission in Afghanistan by instituting a programmatic approach to
the transition and by incorporating lessons learned from the Iraq transition. Embassy Kabul’s
                                           6
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

strategy to institute a programmatic approach and to incorporate lessons learned from the Iraq
transition aligned with benchmarks outlined in the National Performance Review report. A
summary of OIG’s observations of Embassy Kabul’s approach to transition planning and its
alignment with the National Performance Review report is shown in Table 1.

  (SBU) Table 1. Summary of Embassy Planning Compared to Benchmarking Criteria
                            Transition Organization
     Involvement of
                               • Reports directly to the ambassador and deputy chief of mission and
    Senior Leadership
                                    was established more than 3 years prior to transition
                            Transition Organization
      Involvement of
                               • Coordinates and involves managers from all levels of the embassy
      Managers at All
                                    including human resources, general services, and security
          Levels
                               • Participates in working groups to eliminate institutional stove-piping
                            Transition Plans
                               • Transformational Roadmap – establishes the embassy’s strategic
                                    vision for its mission beyond 2014
    Strategic Planning         • Operational Plans – includes detailed planning for embassy
                                    functional areas that align with the strategic vision
                               • Contingency Plans – established in response to planning amid
                                    uncertainty
                            Transition Tasks
                               • Transition Office established and monitors over 1,500 tasks
                               • Tasks are categorized by embassy functional area
                            Monitoring and Evaluation
      Monitoring and
                               • Monitoring of the transition tasks by Project Management
       Evaluation
                                    Professional
                               • Relies on feedback from stakeholders and subject matter experts
                               • Holds weekly reviews between the Project Management Professional
                                    and subject matter experts to review task status and plan accordingly
                            Lessons Learned
                               • Embassy Kabul incorporated lessons learned from the Iraq transition
                                    into its planning, as previously reported by OIG,* such as
                                    • Embassy Baghdad had not incorporated a unified transition plan
                                        to anticipate the military’s departure
     Lessons Learned                • Embassy Baghdad had not identified a single office or point of
                                        contact to direct transition efforts
                                    • Embassy Baghdad’s lack of senior level involvement hampered
                                        transition efforts
                                    • Department was unable to decide and confirm land use
                                        agreements with the Government of Iraq
  (SBU) Source: OIG generated.
  * (U) Performance Evaluation of Embassy Baghdad’s Transition Planning for a Reduced United States Military
  Presence in Iraq (MERO-A-09-10, August 2009) and Department of State Planning for the Transition to a
  Civilian-led Mission in Iraq (MERO-I-11-08, May 2011).




                                             7
                                SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


(U) Programmatic Approach to Transition

        (U) Embassy Kabul planned and was managing the transition in accordance with key
elements contained in the Department’s Managing for Results: A Program and Project
Management Guidebook (Guidebook), a reference tool meant to point Department program or
project managers to applicable requirements, best practices, and supplement existing
recommended project management methodologies contained in the Foreign Affairs Manual and
Foreign Affairs Handbook. Specifically, Embassy Kabul established a transition organization,
developed strategic and operational transition plans, established lines of communication with
other transition stakeholders, implemented a monitoring and review process for transition tasks,
and utilized expertise of a Project Management Professional 8 and other subject matter experts.

        (U) Transition Organization

        (SBU) Embassy Kabul established its first transition office in June 2011, more than
3 years before the transition was scheduled for completion in January 2015. The Guidebook
states that establishing a project management office is critical to the success of project planning
and execution. The National Performance Review report on best practices in downsizing
suggests that managers from all levels, including senior management, should be included in the
realignment or downsizing process. The Transition Office coordinates with managers from all
levels throughout the mission, such as those responsible for human resources, general services,
information technology, and security, and it reports directly to the ambassador and deputy chief
of mission to ensure that senior leadership is involved with and informed of transition issues.
The organizational structure of the Transition Office is shown in Figure 1.




8
 (U) The Project Management Institute’s Project Management Professional credential is an industry-recognized
certification for project managers intended to demonstrate that individuals have the experience, education, and
competency to lead and direct projects.
                                                8
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

            (SBU) Figure 1. Transition Office Organizational Chart




            (SBU) Source: Embassy Kabul.

        (U) The Guidebook states that one of the most critical elements in project management is
a comprehensive communications plan that engages all stakeholders and ensures open lines of
communication. Embassy transition planning officials participate in various working groups,
which serve to stop or minimize institutional stove-piping. For example, the Interagency
Operational Planning Team was chaired by the director of the Transition Office and an ISAF
senior military official to coordinate the transfers of ISAF civil-military tasks to GIROA and
other agencies, including the Department. The involvement of the Transition Office in this
process helped to ensure that the Department was aware of tasks that could potentially be
transferred to the embassy as the military draws down and enabled the Department to plan
accordingly.

       (U) Transition Plans

        (SBU) The Transition Office established the embassy’s strategic vision of its anticipated
post-2014 diplomatic presence in Afghanistan in the Transformational Roadmap (Roadmap)
issued in July 2013. The Roadmap evolved from the U.S. Enduring Presence in Afghanistan
Post-2014 Concept of Operations, Version 2, that was issued on July 4, 2012. The Concept of
Operations strategy, which was based on the SPA and the anticipated outcomes from the BSA,
was the embassy’s official transition planning document until superseded by the Roadmap. The
Roadmap is a planning document that lays out the post-2014 strategic vision of the U.S. mission.
Because the BSA remains unsigned, U.S. and the NATO military enduring presence, the
embassy had to make certain assumptions in the Roadmap. For example, the Roadmap assumes

                                           9
                              SENSITIVE BUT UNCLASSIFIED
                                           SENSITIVE BUT UNCLASSIFIED

     that the BSA will contain a robust set of authorities for the U.S. military to operate in
     Afghanistan with enough autonomy to support U.S. civilian missions. The Roadmap states that a
     critical component of the U.S. enduring presence in Afghanistan will be a strong U.S. civilian
     presence in Kabul and the regional centers throughout the country. [Redacted] (b) (5)
[Redacted] (b) (5)


[Redacted] (b)
(5)
                  The Roadmap assumes the post-2014 security situation at the consulates and
     diplomatic platforms will remain at current levels, and the strategic visions of the United States
     and Afghanistan will mesh and result in the signing of the BSA. The Roadmap is also based on
     the assumption that, once the BSA is signed, the U.S. military will continue to have an adequate
     enough post-2014 presence to support and safeguard the U.S. civilian mission,[Redacted] (b) (5)
                                              Using the Roadmap to establish the embassy’s strategic
     vision of its anticipated post-2014 diplomatic presence in Afghanistan and as a planning
     document aligns with the National Performance Review on best practices for downsizing, which
     states that plans should align to an organization’s strategic direction.

            (SBU) To compensate for the uncertainty of planning based on assumptions, the embassy
     has developed contingency plans, separate from the Roadmap, based on various scenarios. OIG
     reviewed contingency staffing plans for the embassy in Kabul, which are based on three
     scenarios of assumed military support, including a scenario where there is no residual U.S. or
     NATO military presence in Afghanistan. According to the embassy transition director,
     contingency plans have also been developed that outline options other than what is included in
     the Roadmap for locations outside of Kabul. OIG was not granted access to those contingency
     plans. Therefore, OIG is not able to comment on the extent of documented contingency plans for
     areas outside of Kabul. However, during the audit, the Transition Director discussed some of the
     various options with OIG, [Redacted] (b) (5)



             (SBU) The embassy has also issued 14 operation plans (OPLAN), which document the
     detailed planning necessary to execute the Roadmap’s strategic vision. The OPLANs were
     originally developed by the Management Transition Office with input from embassy subject
     matter experts. The OPLANs document the detailed planning necessary for transition, such as
     establishing tasks and timeframes, and addressing any obstacles, threats, or limitations that might
     be encountered. In addition, the OPLANs are used to explain the functional area reporting
     mechanisms, staffing and funding requirements and the interaction and coordination efforts with
     other transition stakeholders. OPLANs have been issued for the following functional areas:
     Embassy Air, Facilities, Field Support Unit, General Services Office, Human Resources Office,
     Information Resource Management Office, Legal, Medical, and Regional Security Office. The
     OPLANs can also include information relative to each individual office’s approach to the
     transition and several OPLANs include issues encountered during the Iraq transition that could
     be used to aid transition planning in Afghanistan. For example, to address the excessive amount
     of military property and equipment the Department acquired in Iraq, the OPLAN for the

     9
         (U) A diplomatic platform refers to an official U.S. diplomatic facility that is neither an embassy nor a consulate.
                                                       10
                                           SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

Embassy Kabul General Services Office includes policies and procedures for vetting excess
military property to ensure that there is a legitimate need for the property and that the embassy
has the ability and resources to maintain the property. The OPLANs align with the National
Performance Review on best practices for downsizing, which states that each department within
the organization should develop plans to show how the downsizing or realignment will be
implemented.

        (U) Transition Tasks

        (SBU) The Transition Office has established over 1,500 tasks related to transition. It
monitors those tasks through 11 databases categorized by embassy functional area, such as
General Services Office, Regional Security Office, and Human Resources Office. Each database
contains transition tasks related to its functional area. The transition tasks have milestone dates
for task completion, and each task is assigned a status—late, at-risk, complete, in-progress,
up-coming, or not yet started. 10 The tasks are tracked and monitored by the Transition Office’s
Project Management Professional on a Gantt chart, 11 which can be viewed by transition planners
concurrently in Kabul and in Washington. 12 The Gantt chart is used as a schedule management
tool to review the status of transition activity on a weekly basis at program management review
meetings that take place between a Transition Office official and the functional area managers.
In addition to the tasks under the Transition Office in Kabul, the Gantt chart tracks transition
tasks for the Transition Program Office in Washington. Data from the chart is also used to
produce high-level consolidated status reports of embassy transition efforts, which serve as the
focal point for monthly status meetings with the transition stakeholders in Kabul and
Washington. This type of planning aligns to the Guidebook, which describes a project
management process that includes developing detailed project plans and other project
management documentation, such as schedules and risk management plans, to implement and
execute project goals.

        (U) Monitoring and Evaluation

        (SBU) To monitor over 1,500 tasks, the Transition Office has implemented a monitoring
and evaluation process that relies on feedback from stakeholders and subject matter experts from
across the mission. This process allows the Transition Office to identify additional tasks,
appropriate milestones, and decision points. For example, during the weekly program
management reviews between the Transition Office and functional area managers who are
subject matter experts, tasks are reviewed and, if necessary, the Project Management
Professional will update task status on the Gantt chart, create additional tasks, or plan other
mitigating actions based on feedback from the subject matter experts. This aligns to the
Guidebook, which states that performance management should consist of a systematic process of
monitoring program activities where managers execute their plans while providing monitoring
10
   (U) Additional details on the validation of transition tasks are shown in Appendix B.
11
   (U) A Gantt chart is a schedule management tool used to compare baseline dates, forecasted dates, and actual
progress to date for various activities.
12
   (U) The Executive Office for the Bureaus Near Eastern Affairs and South and Central Asian Affairs formed the
Transition Program Office to facilitate transition planning and coordination between other entities within the
Department, Embassy Kabul, the Department of Defense, and the intelligence community.
                                              11
                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

and reporting of project activities, including conducting reviews and developing corrective
actions to ensure projects are staying within stated timeframes. In addition, the Transition
Office’s monitoring and evaluation process aligns with the National Performance Review on best
practices in downsizing, which states that monitoring through periodic in-process reviews is a
chief component of successful downsizing.

         (SBU) To ensure that the Transition Office was properly recording the task status (late,
at-risk, complete, in-progress, or up-coming), OIG selected a sample of tasks and validated the
status of each task. Specifically, OIG took a statistical sample of 116 tasks, which included all
20 tasks with a “late” status. 13 OIG was able to validate that the task status was correctly
recorded for all 116 tasks included in our sample. Of the 20 late tasks, 15 were attributed to
embassy transition planners still awaiting decisions from the White House national security staff.
Four of the remaining five late tasks sampled by OIG had been completed at the time OIG
validated the data, and the final late task resulted from construction delays at a water treatment
facility. According to embassy officials, the late task resulting from the construction delay at the
water treatment facility will be completed as soon as the contractor receives the construction
equipment to finish the work, which had been ordered at the time OIG validated the data.

        (SBU) The Transition Office is also involved with monitoring staffing levels and the
overall mission rightsizing effort. For example, to monitor overall staffing levels, an official
from the Transition Office sits on the embassy’s Mission Extension and Relocation Committee 14
to ensure that embassy staffing levels are moving in the direction of the projected post-2014
enduring presence levels. In addition, the Transition Office conducts continuous planning by
requiring embassy sections and agencies to periodically revalidate their staffing plans and
assumptions that could be affected by military drawdown, uncertain funding, and the changing
security situation in Afghanistan. Monitoring staffing levels during a rightsizing process aligns
with the National Performance Review on best practices for downsizing, which states that
tracking workforce adjustments is a key practice in successful downsizing.

        (U) Project Management Professional and Subject Matter Experts

        (SBU) The Transition Office employs the expertise of a Project Management
Professional and several subject matter experts to lead in the development and monitoring of the
transition tasks. The subject matter experts are comprised of individuals who manage the
following functional areas of the embassy: Embassy Air, Facilities, Financial Management
Office, Field Support Unit, General Services Office, Human Resources Office, Information
Resource Management Office, Legal, Medical, Office of Continuity, and Regional Security
Office. 15 The subject matter experts, along with the Project Management Professional and other

13
   (U) Detailed sampling methodology and results are presented in Appendix B.
14
   (U) The Mission Extension and Relocation Committee is composed of representatives from the Transition Office,
Interagency Provincial Affairs, USAID, Management, Regional Security Office, and Agriculture. This committee
reviews each staffing extension or repositioning request and determines whether the position and extension is
required to meet essential mission strategic goals.
15
   (U) The Office of Continuity’s mission is to “assist the embassy in maintaining a collaborative, continuous, and
enduring information environment in support of the dynamic transition in Afghanistan” so that the information can
be maintained for posterity.
                                               12
                                   SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

transition officials, develop and update the OPLANs, which contain the planning details
necessary to establish the enduring diplomatic presence. Of the 11 embassy functional areas, 9
have an OPLAN, which was used to develop the Gantt chart. The Project Management
Professional is responsible for monitoring and updating the tasks on the Gantt chart. The chart is
updated during weekly program management review meetings between the Project Management
Professional and subject matter experts responsible for task completion. Utilizing a Project
Management Professional aligns with the guidebook, which supports personnel with such
certifications to implement globally recognized standards in project management. In addition,
utilizing functional area managers who are subject matter experts from across the mission aligns
with the National Performance Review on best practices in downsizing, which states that holding
managers throughout the organization accountable is a necessary component to successful
downsizing.

(U) Incorporation of Lessons Learned from the Iraq Transition

        (SBU) Embassy Kabul transition planning has effectively incorporated lessons learned
from the transition to a reduced military presence in Iraq. During the Iraq transition, OIG
reported 16 that Embassy Baghdad had not formulated a unified transition plan to anticipate the
military’s departure and that there was no single office or point of contact to direct these efforts.
As stated above, Embassy Kabul has established a transition organization, which includes an
office that acts as a single point of contact for transition issues and implements both strategic and
operational transition plans. In Iraq, OIG reported that the lack of timely decisions on key
issues, which stemmed from a lack of senior level participation in the process, hampered the
transition effort. In Afghanistan, to ensure senior level participation in the transition process, the
Transition Office reports directly to the ambassador and deputy chief of mission. Another
challenge that OIG reported regarding the Iraq transition was the Department’s inability to
decide and confirm land use agreements with the Government of Iraq. Conversely, Embassy
Kabul has identified several land use agreements with GIROA that could be used for an enduring
diplomatic presence once key decisions are made concerning residual military levels and once
the BSA is completed. Incorporating lessons learned from other organizations that have
experienced a similar change is a critical component of Federal Government downsizing best
practices. In addition, organizations should make sure that their processes are adequately
documented so they can be shared with other organizations; Embassy Kabul is ensuring that its
transition processes are adequately documented through its Office of Continuity.

(SBU) Lack of Key Decisions and BSA Impact

       (SBU) Although Embassy Kabul has generally engaged in effective planning, key
decisions concerning the post-2014 U.S. military presence and an incomplete BSA may impact
Embassy Kabul’s ability to timely implement transition activities. In July 2013, the Special
Representative for Afghanistan and Pakistan testified before the Senate Foreign Relations
Committee that the President was still reviewing options from his national security staff and had

16
  (U) Performance Evaluation of Embassy Baghdad’s Transition Planning for a Reduced United States Military
Presence in Iraq (MERO-A-09-10, August 2009) and Department of State Planning for the Transition to a Civilian-
led Mission in Iraq (MERO-I-11-08, May 2011).
                                             13
                                 SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

not made a decision about the size of a U.S. military presence after 2014. In addition, the BSA,
which will determine the status and role of U.S. military forces after the NATO combat mission
ends December 31, 2014, remains unsigned. An unsigned BSA could potentially lead to a
complete military withdrawal from Afghanistan, as was the case in Iraq where the inability of the
U.S. and the Government of Iraq to agree on the status of U.S. forces led to the complete
withdrawal of U.S. military personnel. According to the Special Representative for Afghanistan
and Pakistan, without an agreement that serves both U.S. and Afghan interests, there cannot be a
residual U.S. military presence in Afghanistan after 2014. Because of this uncertainty, embassy
officials are unable to move forward with several transition tasks, including tasks related to
preparing critical security assets for diplomatic locations outside of Kabul, which may result in
embassy operations being significantly curtailed at diplomatic platforms. If embassy operations
are not curtailed, the embassy will need to expend substantially greater resources in an effort to
address an increased security risk.

       (SBU) Because of the lack of key decisions, the embassy must plan for transition based
on varying assumptions, which could affect its ability to prepare fully and to plan accordingly.
For example, the Roadmap assumes that the BSA will contain a robust set of authorities for the
U.S. military to operate in Afghanistan with enough latitude to support U.S. civilian missions,
[Redacted] (b) (5)
                                                             As of November 20, 2013, the embassy
co-locates with the military at four of its five field locations and relies on the military for critical
support requirements, [Redacted] (b) (5)

                                                                             In addition, the
Roadmap assumes that Embassy Air will continue to operate with access to civilian and military
airfields under Afghan airspace access agreements. Even with contingency plans based on
various scenarios of military support, including a scenario with no military support, it will still
take the military time to initiate their plans, which affects the embassy’s ability to prepare and to
plan accordingly. Without troop numbers and decisions on diplomatic locations outside of
Kabul, the embassy may be unable to fully prepare in the field, which could affect its ability to
conduct the diplomatic mission in those areas. As a result, much of the embassy’s transition
planning is based on assumptions that may or may not occur.

        (SBU) Embassy Kabul relies on the military for critical support, and with the BSA
outcome unknown and the residual U.S. or NATO troop levels still undecided, the level to which
the embassy will be able to leverage support from the military in post-2014 Afghanistan remains
unknown. Consequently, much of the post-2014 programs and operations are highly dependent
on the still unsigned BSA, which according to Embassy officials, affects their ability to staff
properly. OIG recently reported that the U.S. Mission Iraq staffing process was made without
full consideration of U.S. foreign policy priorities which resulted in Embassy Baghdad not
knowing whether it had the proper number or skill mix of personnel needed to meet mission
priorities while minimizing security risk and optimizing costs. 17 The Foreign Service staffing
process optimally requires U.S. missions to make staffing decisions one year in advance, which
means Embassy Kabul had to establish much of its summer 2014 Foreign Service positions in

17
     (U) Audit of the U.S. Mission Iraq Staffing Process (AUD-MERO-13-33, August 2013).
                                               14
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

mid-2013 based not on actual post-2014 programs and operations but based on its own
assumptions and resulting transition plans. Specifically, the embassy assumed that the U.S.
Mission in Afghanistan will become more “traditional” over the next few years, [Redacted] (b) (5)



                                        As a result, the embassy currently is unable to determine
with precision whether it will have the proper number or skill mix of personnel needed to meet
mission priorities at all locations as transition is completed by the end of 2014.

(U) Conclusion

        (SBU) OIG determined that Embassy Kabul’s transition planning was generally effective
because it instituted a programmatic approach to the transition and incorporated lessons learned
from the Iraq transition. However, timely key decisions regarding the enduring U.S. military
presence and a signed BSA are needed to determine the extent of the post-2014 U.S. Mission
Afghanistan programs and operations and allow the Embassy Kabul to plan accordingly.
Without timely key decisions, the embassy will potentially be unable to fully prepare for the
transition from a military-led to civilian-led mission in Afghanistan, and may need to expend
substantially greater resources in an effort to address an increased security risk. Because further
transition planning and implementation is contingent on BSA completion, OIG is not making
recommendations in this report. However, OIG will continue to monitor BSA completion status
and its impact on Embassy Kabul’s transition planning and implementation.

(U) Department Responses to the Finding

        (SBU) OIG received responses to the draft report from Embassy Kabul on November 2,
2013, and DS on November 7, 2013. Both the embassy and DS agreed that BSA completion will
determine the U.S. footprint in Afghanistan and reiterated that transition planning is based on the
most current information available to allow for the greatest flexibility. DS also stated that the
report example concerning [Redacted] (b) (5)

          and therefore should not be used in the report. Embassy Kabul’s comments are
reprinted in full in Appendix C. DS’s comments are reprinted in full in Appendix D.

(U) OIG Reply

       (SBU) OIG met with embassy and DS officials to obtain additional information
concerning the [Redacted] (b) (5)                                and determined that the
example was no longer relevant because of recent decisions concerning [Redacted] (b) (5)
Therefore, OIG removed that example from the report.




                                          15
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


                                                                                           (U) Appendix A

                                   (U) Scope and Methodology
        (U) The Department of State (Department), Office of Inspector General (OIG) initiated
this audit under the authority of the Inspector General Act of 1978, as amended, to assess the
effectiveness of the Department and Embassy Kabul’s planning for the transition from a
military-led to civilian-led mission in Afghanistan. This is the first in a series of OIG reports on
the Afghanistan transition. This report focuses on the effectiveness of the Department’s
transition planning process. Subsequent reports will focus on the impact of transition on
Department programs and operations in Afghanistan and on the effectiveness of the transition
plan’s implementation. OIG conducted this audit from December 2012 to October 2013 in
Afghanistan and Washington, DC metropolitan area. This performance audit was conducted in
accordance with generally accepted government auditing standards. These standards require that
OIG plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for findings and conclusions based on the audit objectives. OIG believes that the evidence
obtained provides a reasonable basis for the findings and conclusions based on the audit
objective.

       (U) To accomplish the audit objective, OIG reviewed various international agreements
regarding the transition to a civilian-led mission in Afghanistan including Enduring Strategic
Partnership Agreement between the United States of America and the Islamic Republic of
Afghanistan, which affirmed the bond between the two nations and explains how the U.S. will
continue its commitment to support Afghanistan in the future. Other agreements reviewed
included declarations from the Lisbon Summit, the Bonn Conference, the Chicago Summit, and
the Tokyo Conference on Afghanistan, which discusses the security transition to the Afghan
government and the international community’s continuing support for Afghanistan through 2024.

        (SBU) To evaluate the effectiveness of transition planning, OIG reviewed Embassy
Kabul’s strategic transition planning document: the Transformational Roadmap dated July 29,
2013, and its predecessor the U.S. Enduring Presence in Afghanistan Post-2014 Concept of
Operations, 1 which lays out the Embassy’s plan to move forward with transformation of the
diplomatic presence in Afghanistan. OIG also reviewed embassy-level operational planning
documents (OPLAN) which provide details for implementing the Roadmap. OIG compared
tasks outlined in the OPLANs to tasks established and tracked by the Transition Office. In
addition, OIG reviewed and verified the reasonableness of the status of individual tasks
established and monitored by the Transition Office (see Use of Computer-Processed Data). To
evaluate the Embassy’s overall transition planning process, OIG applied guidance including Best
Practices in Downsizing 2 and A Program and Project Management Guidebook. 3

      (U) To ensure inclusive coordination, OIG met with the various offices involved with or
affected by transition including officials at various sites in Afghanistan as well as Washington
1
  (SBU) U.S. Enduring Presence in Afghanistan Post-2014 Concept of Operations, ver. 2, July 4, 2012.
2
  (U) Serving the American Public: Best Practices in Downsizing, National Performance Review, Sept. 1997.
3
  (U) Managing for Results: A Program and Project Management Guidebook, Department of State, June 2012.
                                             16
                                 SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

DC. In addition to the deputy chief of mission at the embassy, OIG met with officials from the
offices identified in Table 1. OIG also collected documentation on transition planning including
emails, staffing projections, and contingency plans.

      (U) Table 1. Offices Contacted by the Office of Inspector General
        Embassy Kabul                               Afghanistan Regional Platforms
        Embassy Air                                 North (Mazar-e Sharif )
        Embassy Legal Advisor                       South (Kandahar)
        Executive Office                            East (Bagram)
        Field Support Unit                          Southwest (Helmand)
        General Services Office                     West/Consulate Herat (Herat)
        Human Resources Office                      Military in Afghanistan
                                                    International Security Forces Afghanistan
        Information Management Office
                                                    (Kabul)
        Interagency Provincial Affairs              U.S. Forces Afghanistan (Kabul)
        International Narcotics and Law
                                                    Washington, DC
        Enforcement Affairs
        Management Transition Office                Bureau of South and Central Asian Affairs
        Health Unit                                 Bureau of Diplomatic Security
                                                    Office of the Special Representative for
        Office of Continuity
                                                    Afghanistan and Pakistan
        Overseas Buildings Operations               Office of the Under Secretary for Management
        Regional Security Office
        Transition Office
      (U) Source: OIG generated.

(U) Work Related to Internal Controls

        (SBU) OIG performed steps to assess the adequacy of internal controls related to
transition planning. Specifically, OIG interviewed personnel responsible for transition planning
at Embassy Kabul, the five Regional Platforms, Washington, DC, and International Security
Forces Afghanistan to ensure planning was coordinated. OIG also reviewed the Transition
Office’s monitoring and evaluation process including sampling the transition task database to
validate the status of tasks (see Appendix B). On a weekly basis, Transition Office officials
conducted performance reviews with each of the 11 functional area 4 subject matter experts where
the Transition Office’s Project Management Professional received task status input from the
subject matter experts. During these reviews, the Project Management Professional updates the
database, to include adjusting task milestones and task status to reflect conditions on the ground
as reported by the subject matter experts. OIG evaluated several of these performance reviews as



4
 (SBU) Functional area offices include Embassy Air, Facilities, Field Support Unit, Financial Management Office,
General Services Office, Human Resources Office, Information Resource Management Office, Legal, Medical,
Office of Continuity, and Regional Security Office.
                                               17
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

well as the Transition Office change log, where Transition Office officials document any
changes made to the database.

(U) Use of Computer-Processed Data

       (U) OIG used computer-processed data provided by the Transition Office including
screenshots of various databases used to monitor transition tasks. To assess the reliability of
computer-processed data, OIG tested, via sampling, whether the task status was correct for a
sample of tasks. See Appendix B for detailed sampling methodology and results. OIG also
conducted interviews with officials knowledgeable about of the data and collected
documentation to support the data provided. OIG believes the data was sufficiently reliable for
the purposes of this report. Therefore, OIG believes that the evidence obtained provides a
reasonable basis for the findings based on the audit objectives.

        (U) OIG’s testing was limited to the accuracy of the information (i.e., “task status”)
reported in the Transition Office’s databases. OIG did not test the task database for
completeness and was therefore not able to determine whether the tasks identified by the
Transition Office encompass all tasks necessary or whether the tasks identified are the
appropriate tasks.




                                          18
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


                                                                                               (U) Appendix B

                           (U) Validation of Transition Task Status
        (SBU) The Transition Office maintains 11 functional area databases, which together
contain over 1,500 transition tasks. The databases can be viewed in the form of a Gantt chart,
which is a schedule management tool used to compare baseline dates, forecasted dates, and
actual progress to date for various activities or tasks. According to Transition Office officials,
tasks may be assigned hundreds of attributes, or fields. Some of the most commonly used fields
are Task ID number, Unique ID, Indicator, Project Manager Status (PM Status), Percent
Complete (% Complete), Critical, Name, Start Date, Finish Date, Duration, Predecessor,
Successor, Constraint Type, Constraint Date, Task Type, Actual Start, Actual Finish, Baseline
Start, Baseline Finish, Decision Point, and Categories.

        (SBU) Each task is assigned one of six status categories: late, at-risk, in-progress,
complete, up-coming, or not yet started in the database under the column heading “PM Status,”
which is presented as a colored circle. The categories are color-coded and defined according to
the task status, as shown in Figure 1.

(SBU) Figure 1. Task Status Categories and Definitions
                       PM
      Category                                                Definition
                      Status

         Late                  A task where the current date is past the assigned finish date

                               A task that should have already started or is at risk of becoming
       At-Risk
                               "late" because the current date is close to the assigned finish date

     In-Progress               A task that has started and is not defined as “late” or “at-risk”

      Complete                 A task that has been considered complete

                               A task where the current date is within 30 days of the assigned start
      Up-coming
                               date
                               A task that has not begun where the current date is more than 30 days
    Not Yet Started
                               from the assigned start date
(SBU) Source: OIG generated based on information provided by the Transition Office

       (SBU) On April 24, 2013, OIG was provided screenshots 1 from the 11 functional area
databases. Information in the screenshots included: Task ID Number, PM Status, % Complete,

1
 (SBU) OIG requested access to the databases but was denied because the Bureau of South and Central Asian
Affairs determined the databases were “internal working document[s].” As an alternative, OIG was provided
screenshots of the data and manually counted and verified the data, working with the Transition Office at Embassy
Kabul for updated data as necessary.
                                              19
                                  SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED

         Name, Start Date, Finish Date, and Duration. OIG did not rely on the data as provided but
         performed tests and found that the data was reliable. [Redacted] (b) (5)

[Redacted] (b) (5)




         (U) Detailed Sampling Methodology

                 (U) OIG’s sampling objective was to test the reasonableness of the task status categories
         that the Transition Office assigned to transition tasks (late, at risk, in-progress, upcoming, or
         complete) contained in the databases by obtaining documentation or other support for the
         statuses of the tasks.

                 (U) Identification of the Universe of Transition Tasks

                 (SBU) After obtaining screenshots of the Transition Office’s 11 databases, OIG
         physically counted and recorded the number of transition tasks by functional area and task status
         category. The total universe (or population) of 1,554 transition tasks by functional area and task
         status category are listed in Table 1.




                                                  20
                                      SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


(SBU) Table 1. Universe of Transition Tasks by Functional Areas and Categories
                                          At         In                                   Not Yet   Total
 Functional Database           Late                            Upcoming        Complete
                                         Risk     Progress                                Started   Tasks
 Embassy Air                     4         0         16             3             77        33      133
 Facilities                      0         0          0             0              0        79       79
 Financial Management
                                 0         0          0             0             6         8        14
 Office
 Field Support Unit              0         0         14            10            216       123      363
 General Services Office         4         0         17             1             71        35      128
 Human Resources Office          0         1         11             1             39        28       80
 Information Resources
                                 0         0         15             1             43       133      192
 Management
 Legal                           5         0         28             2            100        78      213
 Medical – Health Unit           0         0         33             0             28        36       97
 Office of Continuity            0         0          3             1             11         5       20
 Regional Security Office        7         0         44             2             61       121      235
          Totals                20         1         181           21            652       679      1554
(SBU) Source: OIG generated based on data provided by the Transition Office.

        (U) Formation of Revised Universe of Transition Tasks into Strata

        (SBU) OIG could not test the reasonableness of tasks identified as “not yet started.”
Consequently, those tasks were eliminated from the universe. Next, OIG formed strata or groups
of tasks primarily to ensure adequate coverage of the most significant tasks. Specifically, OIG
combined tasks identified in the database as “at risk,” “in-progress,” and “upcoming” into a
single stratum and referred to it as “combined and started” tasks. The task status category “late”
was not combined because of the implications of a task being considered late and of the category
only containing 20 tasks. Likewise, tasks identified as “complete” were also not combined
because of the ramifications of erroneously categorizing tasks as “complete” (for example, no
longer subject to monitoring). A stratified revised universe was therefore formed containing
875 transition tasks. Related details are provided in Table 2.




                                              21
                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED



(SBU) Table 2. Revised Universe of Transition Tasks by Functional Areas and Categories
                                               Late          Combined and      Completed   Total
              Functional Database
                                              Universe      Started Universe    Universe   Tasks
 Embassy Air                                       4                19            77       100
 Facilities                                        0                0              0        0
 Financial Management Office                       0                0              6        6
 Field Support Unit                                0                24            216      240
 General Services Office                           4                18            71        93
 Human Resources Office                            0                13            39        52
 Information Resources Management                  0                16            43        59
 Legal                                             5                30            100      135
 Medical – Health Unit                             0                33            28        61
 Office of Continuity                              0                4             11        15
 Regional Security Office                          7                46            61       114
                    Totals                        20               203            652      875
(SBU) Source: OIG generated based on data provided by the Transition Office.

         (U) Selection of Task Samples

        (SBU) OIG tested, via statistical sampling, the reasonableness of the status categories
assigned to the transition tasks. The specific statistical method chosen was stratified random
sampling—a technique that entails separating the population elements into non-overlapping
groups, called strata, and then randomly sampling from each stratum. As previously indicated,
OIG separated the tasks into three strata according to task status. The first stratum included all
tasks with a status of “late,” and OIG tested all 20 of the tasks in this category because of the
implications of a task being considered late and because of the small size of the stratum. The
next stratum was an amalgam of three categories already started but not completed, namely “at
risk,” “in-progress,” and “upcoming,” referred to as “combined and started.” The last stratum
contained tasks identified as “complete.” The last two strata, “combined and started” and
“complete,” were both sampled at a rate of approximately 10 percent per functional area within
each status category, thereby yielding samples of 25 and 71, respectively. In total, OIG therefore
sampled and tested 116 transition tasks out of the universe of 875 tasks. Details of the sampling
by functional areas and categories are shown in Table 3.




                                              22
                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED




(SBU) Table 3. Sample of Transition Tasks by Functional Areas and Categories
                                                       Combined       Combined
                               Late         Late          and            and     Completed   Completed
  Functional Database
                              Universe     Sample       Started        Started    Universe    Sample
                                                       Universe        Sample
 Embassy Air                      4           4            19             2         77          8
 Facilities                       0          N/A            0           N/A          0         N/A
 Financial Management
                                  0          N/A            0             N/A        6           1
 Office
 Field Support Unit               0          N/A            24             3        216         22
 General Services Office          4           4             18             2         71          8
 Human Resources Office           0          N/A            13             2         39          4
 Information Resources
                                  0          N/A            16             2        43           5
 Management
 Legal                            5           5             30             4        100         11
 Medical – Health Unit            0          N/A            33             4         28          3
 Office of Continuity             0          N/A             4             1         11          2
 Regional Security Office         7           7             46             5         61          7
          Totals                  20          20           203             25       652         71
(SBU) Source: OIG generated based on data provided by the Transition Office.

(U) Testing Results

        (SBU) OIG statistically sampled a total of 116 transition tasks to test the reasonableness
of the task status categories (late, at risk, in-progress, upcoming, or complete) assigned by the
Transition Office and found they were all adequately supported. Consequently, OIG is
95 percent confident that the anomaly rate is between 0.00 percent and 2.96 percent when
projected to the universe of 875 transition tasks.
        (SBU) OIG met with the subject matter experts and transition officials in order to verify
the status of each task, obtaining documentation, such as cables, contract documents, and
memorandums, to support the status of 83 of the 116 sampled tasks. For 32 of the remaining
33 tasks, OIG obtained other acceptable evidence. For the last task, OIG physically observed an
item that was purchased that supported the task status of “complete.”
       (SBU) OIG found that 15 of 20 (75 percent) “late” tasks were identified as late because
the embassy was waiting on decisions from the White House national security team. For
additional details about the impact Department and embassy face while waiting on decisions
from the White House national security team, see the Audit Results section of the report.



                                              23
                                  SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED


                                                                                            (U) Appendix C

                (U) Embassy Kabul Response


                                                    Embassy of the United Slates of America

                                                               Kabul, Afghanistan

                                                                November 2, 2013



Dear Mr. Brown:

       Embassy Kabul is gratified by the OJG audit report's recognition of our careful and

holistic planning efforts for transitioning from a military to a civilian lead, internally reshaping

our staffing and programs to suit a post-2014 environment, and managing the changes in

logistical and life support.

       While final decisions on the military footprint await conclusion of discussions on the

Bilateral Security Agreement, the Embassy, Department of State, U.S. Forces-Afghanistan

(USFOR-A), and the National Security Staff have closely coordinated our planning so that the

assumptions we use are based on the most current information available and allow us the greatest

latitude for flexibility. The Embassy's coordination with the NSS on a routine basis is via the

Office of the Special Representative on Afghanistan and Pakistan (SRAP). I also regularly

participate in Deputies and Principal's meetings.




                                                               Sincerely,

                                                                         .... f'     ·c
                                                                                  -~

                                                               James B. Cunningham
                                                               Ambassador



Referenced: (U) Audit of Department of State and Embassy Kabul Planning for the Transition to
a Civilian-Led Mission in Afghanistan, (U) OIG/ AUD Letter to Ambassador Cunningham dated
22 October 20




                          24
              SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


                                                                                    (U) Appendix D

             (U) Bureau of Diplomatic Security Response



                                                  United States Department of State

                                                  \\tuiiiiii:UIII D.     c 2(}520
                                                  "~111.\/1/f('.l{(ll'




SENSITIVE BUT UNCLASSIFIED                     November 7, 20 l3
(t JNCLASSIFlED when separated from attachments)

INFORMATION MEMO TO INSPECTOR GENERAL LINIC K - OIG

FROM:       DS/DSS - Gregory B.   St~                            NOV 07 2013

SUBJECT: Comments on OIG Draft Report - Audit of Department of State and
         Embassy Kabul Planning for the Transition to a Civilian-Led Mission
            in Afghanistan

     Attached are lhe Bureau of Diplomatic Security's fonnal comments to lhe
OJG draft report.

Attachments:
      As stated.




                   SENSITIVE BtJf UNCLASSifiED
              (UNCLASSIFIED when separated from attachments)



                                  25
                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




                           SENSITIVE BUT UNCLASSIFIED


                    DS Comments to OIG Draft Report
Audit of Department of State and Embassy Kabul Planning for the Transition
                 to a Civilian-Led Mission in Afghanistan

(SBU) OIG Draft Report: OIG was able to validate that the task status was
correctly recorded for all 116 tasks included in our sample. Of the 20 late tasks, 15
were attributed to embassy transition planners still awaiting decisions from the
White House national security staff. For example, two tasks assigned to the
embassy Regional Security Office were related to the [Redacted] (b) (5)

           A Regional Security Office official infonned OIG that the tasks were
late because decisions had not been made by the White House national security
staff regarding [Redacted] (b) (5) and that the Regional Security Office callllot move
forward to complete the tasks without those decisions. (page 11)

(SBU) DS comment: DS is in regular contact with Embassy Kabul, the Bureau of
Near Eastern Affairs I Bureau of South and Central Asia Affairs (NEA/SCA) and
the Office Special Representative for Afghanistan and Pakistan (S/RAP) regarding
the future size and scope of overall USG footprint in Afghanistan and in particular
the diplomatic Mission Afghanistan. While the final decision on the footprint
awaits the conclusion of the Bilateral Security Agreement (BSA), our planning is
based on the most current infonnation available to allow the greatest flexibility.
Field presence is dependent on the future military footprint and other factors. The
example cited in the report regarding the [Redacted] (b) (5)




                           SENSITIVE BUT UNCLASSIFIED




                                 26
                     SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




(U) Major Contributors to This Report

(U) Carol N. Gorman, Deputy Assistant Inspector General
Middle East Region Operations Directorate
Office of Audits

(U) Beverly J.C. O’Neill, Audit Manager
Middle East Region Operations Directorate
Office of Audits

(U) Tony J. Eason, Senior Auditor
Middle East Region Operations Directorate
Office of Audits

(U) Kristina A. Weis, Auditor
Middle East Region Operations Directorate
Office of Audits

(U) Philip B. White, Management Analyst
BCP International, LTD




                                       27
                           SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
      Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
